"Review of Outpatient Psychiatric Services Provided by Hollywood Pavilion Hospital for Fiscal Year Ending June 30, 1998,"(A-04-00-01209)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Outpatient Psychiatric Services Provided by Hollywood Pavilion Hospital for Fiscal Year Ending June 30,
1998," (A-04-00-01209)
April 11, 2001
Complete
Text of Report is available in PDF format (712 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that significant numbers of outpatient psychiatric claims by Hollywood Pavilion Hospital
for Fiscal Year 1998 did not meet Medicare reimbursement requirements. Specifically, many outpatient psychiatric services
were not documented according to Medicare requirements or were not reasonable and necessary. We estimated, based on a statistical
sample, that the hospital overstated billings to Medicare for outpatient psychiatric services by $2.4 million for the above
period. We also identified $721,388 in other unallowable expenses included on the cost report that were improperly allocated
or not reimbursable. We recommended financial adjustments. We further recommended that the hospital strengthen its procedures
to ensure charges for outpatient psychiatric services are covered and properly documented in accordance with Medicare requirements.
Finally, we recommended that the hospital develop procedures to exclude unallowable costs from its Medicare cost report
and properly allocate costs.